3$mteh States (Eouri of j\ppeals
For the Seventh Circuit
Chicago, Illinois 60604
November 17,2020
Before
DIANE S. SYKES, ChiefJudge
MICHAEL B. BRENNAN, Circuit Judge

No. 20-1137
PETER GAKUBA,
Petitioner-Appellant,

Appeal from the United States District
Court for the Northern District of
Illinois, Western Division.

v.
No. 17 C 50337
TERRY GRISSOM,
Respondent-Appellee.

John Z. Lee,
Judge.

ORDER
On consideration of the petition for rehearing and for rehearing en banc filed by
Petitioner-Appellant on November 2, 2020, no judge in active service has requested a vote
on the petition for rehearing en banc, and the judges on the original panel have voted to
deny rehearing.
Accordingly, the petition for rehearing is DENIED.

Mrttfeh

Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 13, 2020
Decided October 22,2020
Before

DIANE S. SYKES, ChiefJudge
MICHAEL B. BRENNAN, Circuit Judge

No. 20-1137
PETER GAKUBA,
Petitioner-Appellant,

v.
TERRY GRISSOM,
Respondent-Appellee.

Appeal from the United States District
Court for the Northern District of
Illinois, Western Division.
No. 17 C 50337
John Z. Lee,

Judge.
ORDER

Peter Gakuba has filed a notice of appeal from the denial of his many post­
judgment motions, including his Federal Rule of Civil Procedure 60(b) motion
requesting reconsideration of his 28 U.S.C. § 2254 petition. He has also filed a request
for a certificate of appealability. We have reviewed the orders of the district court and
the record on appeal. We find no substantial showing of the denial of a constitutional
right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability and DENY
Gakuba's pending motions. We caution that further frivolous filings may justify
monetary sanctions. See Alexander v. United States, 121 F.3d 312,315 (7th Cir. 1997).

*\

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Peter Gakuba,

)

Petitioner.
v.

)
)

Case No: 17 C 50337

)

Christine Brannon,
B.espondenl.

Judge Frederick J. Kapala
ORDER

t

Petitioner’s motion to proceed in forma pauperis 13] is granted. Grounds five through seven are
dismissed^ without prejudice. Respondent is directed to answer
otherwise respond to .the
■ remaining aims within 30 days. Petitioner’s reply, if any, to Xe filed within 30 days of the
response.
-MREPS fe-raus’H °
To nfFPWs vqe&ews
IT'U.'S * U3 i^ia\P
<_ecte^

ti-fivu»\gs sj.
z
STATEMENT
■ Following a jury trial in the Seventeenth Judicial Circuit, Winnebago County, Illinois,
petitioner, Peter Gakuba, was convicted of three counts of aggravated criminal sexual abuse and W3.S
sentenced to four years’ imprisonment on each count with the sentences to run consecutively. On
direct appeal, the Illinois Appellate Court, Second District, rejected the following seven arguments
and atfirmed petitioner’s conviction and sentence: (1) the trial court erred in allowing Sergeant
O’Brien to testify regarding petitioner5s name and birth date; (2) the trial court erred in granting the
State s motion to take a buccal sample of petitioner; (3) the evidence was insufficient to sustain his
convictions; (4j that his Sixth Amendment right to self-representation was violated when his request,
to proceed to trial pro se was denied; (5) the trial court erred in denying his motions to disqualify the
assistant state's attorney.’; (6) the trial court erred in denying his motions to disqualify’ two judges;
and (7) the trial court erred in sentencing him to a term of imprisonment rather than probation and
m imposing consecutive sentences. People v, Gakuba, 2017 IL App (2d) 150744-U, \ 47.
Petitioner’s petition for leave to appeal was denied. People v. Gakuba, No. 122289, 201"’ WL
4386407 (Ill. Sept. 27, 2017).
Petitioner presents the same seven contentions as his grounds for relief under § 2254.
Petitioner also states in his petition that he has pending before the Illinois Appellate Court an appeal
of the trial court’s dismissal of his post-conviction petition in which he has raised the ineffective
assistance of trial counsel. See People v. Gakuba, No. 2-17-0744.
Rule 4 of the Rules Governing § 2254 Cases requires prompt examination by the court and
provides, “[i]f it plainly appears from the petition and any attached exhibits that the petitioner is not
entitled to relief in the district court, the judge must dismiss the petition and direct the clerk to notify

%

the petitioner.” A claim must be presented as a federal constitutional claim in the state court
proceedings in order to be exhausted. See Duncan v.Henrv. 513 U.S. 364, 365-66 (1995). It is clear
from the record that petitioner’s § 2254 grounds five through seven were not presented to the Illinois
courts as federal constitutional claims and, therefore, are not exhausted. See People v. Gakuba 2017
ILApp (2d) 150744-U.
In particular, with regard to ground five, the Illinois Appellate Court rejected petitioner’s
contention that the trial court erred in denying his motions to disqualify the assistant state’s attorney
because it abused its discretion under the standard delineated in Marshall v. County of Cook. 2016
IL App (1st) 142864, 22, and violated the Illinois Counties Code, 55 ILCS 5/4-2003. Gakuba,
2017 IL App (2d) 150744-U, ^ 91-99. As for ground six, the Illinois Appellate Court rejected
petitioner's contention that the trial court erred in denying his motions to substitute two judges
pursuant to 72o ILCS tv 114-n. The Court held that the trial court’s finding that there was no indicia
of judicial prejudice against petitioner was not against the manifest weight of the evidence as that
standard has been articulated by the Illinois Supreme Court in People ex rel, Baricevic v, Wharton.
136 m. 2d 423, 439 (1990), and People v. Patterson. 192 Ill. 2d 93, 131 (2000). Id <1102. With
respect to ground seven, in rejecting petitioner’s sentencing arguments, the Illinois Appellate Court
hell that the trial court did not abuse its discretion under Illinois law in choosing incarceration over
.probation, id <1 115, or in imposing consecutive sentences ’under "730 ILCS 5 W3-4ib), id r. IP.
Thus, the record is clear that grounds five through seven were not presented as federal "
constitutional claims nor decided as such. Those grounds are dismissed without prejudice for failure
to exhaust. Consequently, petitioner will be permitted to proceed on only pounds one through four.
"’KviSp
~x> gPA&vsS
Zo\% uj
stubs' %< \HS5 US 5c^ OAsr) ;
us-tbEP, sxs C-S
(• Zcitys^o
Date: 11 LOGO 17
'ENTER:

b

FREDERICK J, KAP^LA
District Judge

2

)

